<html>
<title> - TRIMMING THE FAT: EXAMINING DUPLICATIVE AND OUTDATED FEDERAL PROGRAMS AND FUNCTION</title>
<body><pre>[Senate Hearing 108-672]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-672

 TRIMMING THE FAT: EXAMINING DUPLICATIVE AND OUTDATED FEDERAL PROGRAMS 
                              AND FUNCTION

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
    THE FEDERAL WORKFORCE, AND THE DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              May 6, 2004

                               __________

      Printed for the use of the Committee on Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
94-486                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                      Amy B. Newhouse, Chief Clerk

                                 ------                                

  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                  GEORGE V. VOINOVICH, Ohio, Chairman
TED STEVENS, Alaska                  RICHARD J. DURBIN, Illinois
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        FRANK LAUTENBERG, New Jersey
JOHN E. SUNUNU, New Hampshire        MARK PRYOR, Arkansas

                   Andrew Richardson, Staff Director
   Marianne Clifford Upton, Minority Staff Director and Chief Counsel
                      Kevin R. Doran, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1

                               WITNESSES
                         Thursday, May 6, 2004

Hon. Sam Brownback, a U.S. Senator from Kansas...................     3
Clay Johnson, III, Deputy Director for Management, Office of 
  Management and Budget..........................................     8
Hon. Dick Armey, Co-Chairman, Citizens for a Sound Economy.......    16
Paul Weinstein, Jr., Chief Operating Officer, Progressive Policy 
  Institute......................................................    19

                     Alphabetical List of Witnesses

Armey, Hon. Dick:
    Testimony....................................................    16
    Prepared statement...........................................    51
Brownback, Hon. Sam:
    Testimony....................................................     3
    Prepared statement...........................................    27
Johnson, Clay, III:
    Testimony....................................................     8
    Prepared statement...........................................    33
Weinstein, Paul, Jr.:
    Testimony....................................................    19
    Prepared statement...........................................    53

                                APPENDIX

Chart entitled ``Major Management Challenges and Program Risks, A 
  Governmentwide Perspective,'' of areas of Fragmentation and 
  Overlap Discussed in GAO Products, submitted by Senator 
  Voinovich......................................................    57
Letter from Clay Johnson, III, Deputy Director for Management, 
  Office of Management and Budget, to Senator Voinovich..........    58

 
 TRIMMING THE FAT: EXAMINING DUPLICATIVE AND OUTDATED FEDERAL PROGRAMS 
                              AND FUNCTION

                              ----------                              


                         THURSDAY, MAY 6, 2004

                                       U.S. Senate,
            Oversight of Government Management, the Federal
            Workforce, and the District of Columbia Subcommittee,  
                          of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. The meeting will please come to order.
    I thank all of you for coming.
    The Subcommittee is going to be hearing today Senator 
Brownback's legislation, S. 1668, the Commission on the 
Accountability and Review of the Federal Agency Act.
    This bill would create a commission to evaluate domestic 
Federal agencies and programs to maximize the effectiveness of 
Federal funds. The commission would attempt to identify 
duplicative, wasteful, outdated and irrelevant Federal 
programs. Upon completion of its work, the commission would 
report back to Congress with draft legislation to implement its 
recommendations. Congress would subsequently be required to 
vote either up or down on those recommendations.
    I will leave it to Senator Brownback this morning to 
discuss the proposal in greater detail.
    Senator Brownback's legislation focuses our attention on an 
important question facing Congress as we attempt to allocate 
scarce Federal resources: How do we identify and reform or 
eliminate wasteful, ineffective, and outdated government 
programs?
    When I was governor of Ohio, the first year we said gone 
are the days when public officials will be judged by how much 
they spend on a problem. The new realities dictate that public 
officials are going to have to work harder and smarter and do 
more with less.
    Coming here to Washington, the Federal budget is now well 
over $2 trillion, it maintains 15 cabinet-level departments, 63 
independent agencies, 68 commissions, 4 quasi-official 
agencies, and over 1,000 advisory committees. Many Federal 
agencies and programs were established to address specific 
problems and have outlived their usefulness. Some programs were 
established as bold experiments but never quite achieved their 
goals. Several programs and agencies have such overlapping 
responsibilities that they get in each other's way. Finally, 
there are even a few government programs that are in direct 
conflict with other Federal programs.
    This chart on my right was developed by the General 
Accounting Office in 1999 and it outlines the areas of 
fragmentation and overlap.\1\ Although it is several years, I 
doubt that very much has changed. Clearly, there must be a 
better way to allocate Federal resources and provide taxpayers 
with a more positive return on their investment in government.
---------------------------------------------------------------------------
    \1\ The chart referred to appears in the Appendix on page 57.
---------------------------------------------------------------------------
    I faced exactly this problem on a smaller scale when I 
became governor of Ohio. The State Government was bloated and 
spending was out of control. I recognized that Ohio could never 
get its financial house in order unless we substantially 
improved program management and reduced outdated and 
duplicative programs.
    One of my first actions was to establish an Operations 
Improvement Task Force. And one of the many positive actions we 
took as a result of that task force was to eliminate more than 
60 obsolete State boards and commissions. We even managed to 
close the 73-year-old Ohio Department of Industrial Relations. 
By some estimates, the Operations Improvement Task Force saved 
us about $430 million a year.
    When I first became Chairman of this Subcommittee in 1999, 
succeeding Senator Brownback, I examined overlap and 
duplication in Federal early childhood programs. The General 
Accounting Office found literally dozens of them across 
Departments of Education, Health and Human Services, Housing 
and Urban Development, and other agencies. Although my 
Subcommittee has since focused mostly on human capital 
management, I have also been interested in the issue and am 
looking forward to discussing it with you this morning.
    The biggest problem we must overcome in this effort is that 
almost every program in the Federal Government, no matter how 
effective or spendthrift, has its own core of supporters. It is 
probably impossible to eliminate or reform any Federal program 
without stepping on at least a few toes. It would be wishful 
thinking, at best, to believe we can restructure or shut down 
large numbers of programs across multiple Federal agencies 
without provoking a firestorm of opposition.
    Nevertheless, that task must be undertaken if we are to 
have any hope of providing taxpayers the most effective and 
efficient government possible.
    That is the goal of this legislation before us today.
    Again, I would like to welcome Senator Brownback, who will 
be the first to testify today.
    On our second panel we have the Hon. Clay Johnson, Deputy 
Director for Management at the Office of Management and Budget. 
And I would like to say Clay, that when I first came here, it 
was OMB but there was not any M. You have brought the M to the 
Office of Management and Budget. Clay is going to discuss the 
Bush Administration and what they are doing to evaluate Federal 
programs.
    On the third panel we have the Hon. Dick Armey, former 
majority leader of the House of Representatives, and Paul 
Weinstein, a senior fellow at the Progressive Policy Institute, 
who are going to offer additional views on this proposal.
    Again, I want to thank you all for coming here today. 
Senator Brownback, we look forward to hearing your testimony.

 STATEMENT OF HON. SAM BROWNBACK,\1\ A U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman. Senator 
Voinovich, I appreciate your willingness to hold this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Brownback appears in the 
Appendix on page 27.
---------------------------------------------------------------------------
    This is the first hearing in either the House or the Senate 
on the piece of legislation in front of you now, the CARFA Act, 
Commission on Accountability and Review of Federal Agencies.
    I applaud your willingness to address this issue. This is 
one of those issues that most people just duck away from. They 
are not interested in addressing it because there is going to 
be some pain and difficulty in the process.
    And yet, it is a grave disservice that we are doing to 
taxpayers to waste Federal money. We waste the funds of hard-
working taxpayers, and they do not like it and none of us do 
either. It is time we start to address waste, fraud, and abuse.
    Government bureaucracies, unfortunately, are riddled with 
waste, whether through unnecessary, duplicative, inefficient, 
outdated, or failed agencies and programs.
    I am afraid that Congress has not been nearly as scrupulous 
as we ought to be when it comes to spending hard-working 
taxpayer dollars.
    Mr. Chairman, every year the Congress legislates various 
programs into existence. Whether individual members agree or 
disagree with the substance of these programs is one issue. But 
I think most of us would concede that most of these programs 
are well-intended at the outset.
    The trouble is that once a program comes into existence, 
experience tells us that the program is here to stay, whether 
it is successful, unsuccessful or outdated.
    To quote President Reagan, ``There's nothing so permanent 
as a temporary Government program.''
    The problem is epidemic. The evidence abounds that programs 
simply do not go gently away in the night.
    Examples of government programs that have failed to address 
effectively the problems that they have targeted unfortunately 
abound. People of course, can cite the $600 toilet seat, but 
the problem is actually much bigger than that.
    To illustrate, I want to point out an OMB chart and you 
will have an OMB witness here later to illustrate this.
    The OMB did a process of grading various Federal programs 
for efficiency and effectiveness in addressing the targeted 
objective that the program was put forward to address. The 
chart that I have shows scores for PART, the Performance 
Assessment Rating Tool. It has completed its first two rounds. 
It has not appraised nearly all of the Federal programs but it 
has gone through its first two rounds.
    As we look at the scores that PART puts forward, I put up a 
corresponding academic score of how my children in school would 
be graded if they performed at this level of performance. Now 
keep in mind that not all the agencies have been reviewed by 
this program yet, but I think you can see the trend.
    The median score in the chart indicates the percentage of 
programs within each agency meeting their goals. You can look 
down there, the Department of Transportation, of the 10 
programs reviewed, had a median score of 78. And that is the 
best we have so far. So at least we are getting about a C or C 
plus on transportation dollars.
    But you can look up or down through the programs. There are 
only four scores that would rank within the C range. No A's or 
B's. There were nine D's. There are eight F's.
    Education, of all departments, had 33 programs reviewed and 
only scored a 44 percent on this appraisal where they go in and 
they judge the efficiency and effectiveness of these programs.
    You can see that most of the scores were in the D, D- or F, 
by our own government scoring these programs.
    You quickly have to ask the question when you look at this 
chart: Are taxpayers really getting their money's worth out of 
these programs? And the answer is clearly no. We would not 
tolerate this in a school. I would not tolerate this of my 
children's performance. We have to change something. Something 
has to be done better here. And yet, we let this go on year 
after year, program after program.
    The Congress needs to take steps to deal with this.
    As I go home and talk with my constituents they tell me 
look, I do not mind paying my taxes. I would rather they would 
be less. But it is infuriating to me to see my hard-earned 
money being poorly spent by the Federal Government. If I am 
going to work hard to earn this money I want it to be spent 
wisely. And that is what we need to address. That is what the 
CARFA solution intends to put forward.
    Mr. Chairman, I have an overall presentation but what I 
want to say about the CARFA design model, we have a good model 
that has been used in the past. It is the BRAC Commission, the 
Base Realignment and Closure Commission. And what we basically 
have done with CARFA is we have taken that design and put it on 
all non-defense programs and entitlement programs.
    This is a design that has worked in the past. It is one 
that can work now in this process. And I am afraid, Mr. 
Chairman, if we do not have a process like this, we will not do 
anything to address wasteful spending programs.
    Because of the design of the program it only addresses 
about 25 percent of the Federal budget. The military portion is 
already being addressed, at least the base portion is, and we 
are leaving out the large entitlement programs. So you are only 
talking about 25 percent of the Federal budget in addressing 
this.
    The operation of the program is relatively straightforward. 
A commission is appointed. The commission reviews this 25 
percent of the Federal budget, these programs, for efficiency, 
for effectiveness, for duplicativeness, or maybe, just maybe, 
we actually accomplished the objective of the program and it 
needs to end. We got it done and we need to go on.
    It will appraise these programs and then determine which 
ones should be eliminated because they accomplished their 
purposes, they are duplicative, or they are wasteful.
    And then it presents that to the Congress for an expedited 
vote, up or down, non-amendable procedure of saying OK, we have 
reviewed all these programs. We find these 63 should be 
eliminated and list the reason for that. And then give 
Congress, in the House and the Senate, one vote on whether they 
agree with the package to be eliminated or they think the 
package should not be eliminated. This is the same procedure as 
BRAC.
    The BRAC procedure was done so that we could consolidate 
our money in fewer places because the military was saying we 
just have too many bases. We need fewer bases, but the bases 
that we have we need to upgrade. That is what we have got in 
our Federal spending programs now.
    We have a number of people saying look, we have enough 
total money in the budget but it is not in the right places. We 
need more money in this program or we need more money in that 
program. This allows us a procedure where we can take those 
funds from less effective, inefficient programs or programs 
that have been successful but need to move on, and put it in 
places of higher priority like paying down the national debt or 
reducing the Federal deficit, or in other higher priority 
spending areas.
    This has historical legacy. As I noted, it has historical 
success. You will hear from former Congressman Dick Armey who 
led this process in the BRAC. It was a successful program.
    Without this, Mr. Chairman, I believe we will continue to 
spend the money as we have, that we will not reallocate the 
funds. We will continue to frustrate the people of America with 
wasteful government spending, and will not earn their trust 
that we are spending their money wisely or effectively.
    A final comment that I would put forward, this is true 
conservative governance. We have enough total money we are 
spending in the government. We are just not spending it in the 
right areas. But most people believe we do not have the will to 
actually reallocate the resources. Most believe that we do not 
have the political will to do it and that it is just simpler or 
easier to raise taxes on hard-working Americans rather than 
making the tough choices that will step on some toes and some 
programs.
    But if the program has not been effective, if it is rated 
as an F by our own government in effectiveness, there may be 
some people to stand up for it. But you have to ask the 
question: Why are you defending this? And then put a vote on 
the line. Make members vote. Make me vote, whether we keep the 
whole group or we throw the whole group out.
    I think this is really necessary for us to have the trust 
of the American people that we are spending their money wisely. 
And that is why I put forward this legislation, and I 
appreciate your holding a hearing on it.
    Senator Voinovich. Thank you very much.
    I think back to the initial effort that I wanted to look at 
all the education programs because I think there were 500 or 
more of them. They were not even sure how many of them.
    We had GAO look at them. But they finally came back and 
said that they did not have what they considered to be 
objective standards to determine whether these programs were 
really getting the job done or not.
    I think that one of the real challenges here, and I would 
be interested to hear when former Congressman Armey speaks and 
perhaps Clay Johnson, the administration has gone through and 
evaluated the programs. But one of the areas where you always 
have some real controversy is what are the standards that you 
are going to use to judge these programs?
    Have you given any thought to that? What kind of standards 
we would use?
    Senator Brownback. Yes. You will hear from Clay Johnson, we 
have already got one set of standards that have been put 
forward by this PART review and they have got a set of specific 
items that they use to judge. Is the program hitting the 
targeted pool that it was intended to hit? What are the results 
that are being received from the targeted pool? And they go 
through a series of appraisals there.
    But on the issues of objective standards, however you want 
to develop them I think is critical that we develop them.
    Senator Moynihan taught me before he left the Senate that 
we have rarely found a way to change something in government 
until we find a way to measure it.
    He was pointing this out on unemployment. He was here when 
we came up with unemployment figures and standards. And he said 
you know, it was hard to come up with an objective standard 
because what if a guy is working full-time but he is just not 
even making a living? Is he employed or not? Well, he is 
working but how do you measure that? Or maybe a person is 
working part-time.
    But he said eventually all of the economists came together 
and they came up with a set of standards. It was not perfect 
but people generally agreed with it. And now the government and 
the country moves by what happens on unemployment numbers.
    We will have to do the same process here on developing 
objective standards. We have got to be able to come up with a 
way to measure the effectiveness. And we can. PART, what OMB 
does, is one way. If people do not agree with that, let us do 
another.
    But we have got to be able to measure it and then we will 
be able to react off of that objective standard.
    Senator Voinovich. How does the legislation deal with that 
issue on the standards?
    Senator Brownback. We put forward a series of tests in the 
legislation. Let me go through that set of items. We measure 
based on three key areas: First, duplicative, whether two or 
more agencies or programs are performing the same essential 
function. The function can be consolidated or streamlined.
    Second, wasteful or inefficient, if the commission finds an 
agency or programs have wasted Federal funds by egregious 
spending, mismanagement of resources or personnel. Here you 
have a number of IGs that are out reviewing agencies, OMB and 
others. Third is outdated, irrelevant or failed.
    Those of the three categories that we have. One would have 
to develop specific standards for review under each of those, 
but those are the three categories we put forward in the 
legislation.
    Senator Voinovich. So the commission would be the one that 
would establish the standards?
    Senator Brownback. I would suggest that. If others do not 
want to leave that up to a commission and want to have a more 
prescriptive nature from Congress, I can see doing that. I do 
think we would be wise to give that commission some flexibility 
in measuring that.
    Or perhaps we can review more closely the BRAC process. 
What did they set up for measurables on their commission before 
it went out and make its findings and determination and go off 
of that model.
    Senator Voinovich. I think it is really important because 
if you do not have standards to judge what you are doing, you 
discredit the whole thing and people start attacking the 
standards and say it is not fair and so on and so forth.
    And it would be interesting to see how the BRAC process got 
around that because I am sure there were some people that took 
a shot at the standards in the beginning and somehow they were 
able to justify what they were doing.
    And then the issue became they had good standards, they 
looked at it, here is our result, and then you felt comfortable 
that it was done on an objective basis.
    Why did you leave out the mandatory spending?
    Senator Brownback. We thought it was too big of a bite to 
take, that if we got to this portion of the Federal budget, 25 
percent was a good start. Plus, what I think you will find is 
once we would go through this and you flesh these out and you 
showcase it to the public, you start to gain credibility with 
them that you are actually being serious about dealing with 
their dollars and being efficient with it. And they may allow 
you the credibility then to deal with something that affects a 
broader scope of the public in entitlement programs.
    But we have not earned that right to be able to do that 
yet.
    Senator Voinovich. As you know, Senator Nickles has been 
very interested. In fact, the last Budget Committee had asked 
for recommendations from the departments that deal with 
mandatory spending. And that is where the lion's share of the 
money is going right now.
    But you are basically saying let us deal with this. It will 
probably be less controversy than getting into those major 
programs.
    Senator Brownback. Absolutely. It is not the bigger share 
of it, as I noted in my presentation. But I think we have a 
credibility gap for us to be able to take on. Plus, I did not 
know, just given the makeup and the nature of the way Congress 
is, whether you could get something through like that that 
actually would have mandatory program spending review as well.
    Senator Voinovich. So you are just dealing from a practical 
point of view, looking at reality and saying let us do this. 
And these other need to be done but probably they would be too 
difficult to be successful with them.
    Senator Brownback. If you think you can get it into 
legislation, I am fine. I just think that is a bridge too far 
at this point in time.
    Senator Voinovich. Senator, thank you for coming. We look 
forward to working with you on this legislation.
    Senator Brownback. Thank you very much.
    Senator Voinovich. Our next witness is Clay Johnson, the 
Deputy Director for Management at the Office of Management and 
Budget.
    Clay, as you know, and our other witnesses here today, we 
have a custom in this Committee of swearing in our witnesses. 
If the witnesses will all stand, I will read the oath.
    Do you swear the testimony you are about to give before the 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Johnson. I do.
    Mr. Armey. I do.
    Mr. Weinstein. I do.
    Senator Voinovich. Let the record show that the witnesses 
answered in the affirmative.
    Clay, it is really good to see you here today and to 
congratulate you and the administration on your management 
agenda. I think, from my observation over the years, that you 
genuinely are doing something about management. And I am very 
grateful for that effort. And I think that, from a partisan 
point of view, I think it is one of the issues that people 
should consider when they are selecting the next President of 
the United States, that this administration truly has taken 
some, not PR moves, but some real substantial moves to try and 
improve the efficiency of our government.
    I can testify from my experience as both a mayor for 10 
years and as governor, a lot of the things that one wants to do 
cannot be done in 4 years. If you are taking on a large Federal 
bureaucracy or State bureaucracy, you just cannot do it in that 
period of time.
    I think that the President really should emphasize--I know 
it is not real exciting to be talking about management and 
efficiencies and taxpayer dollars and so forth, although Ronald 
Reagan did a pretty good job with it. But I think that it is 
really important that you convey to the American people what 
you have done in this area. Because I think it is significant 
and I am looking forward to your testimony today.

    TESTIMONY OF CLAY JOHNSON, III,\1\ DEPUTY DIRECTOR FOR 
          MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Johnson. Chairman Voinovich, thank you for having me 
here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 33.
---------------------------------------------------------------------------
    Senator Brownback's bill, the CARFA bill, suggests very 
strongly that the Federal Government is results-oriented. You 
do not normally think of the Federal Government as being 
results-oriented. The bill suggests that the Federal Government 
is. And if it is not, it should be, and we agree.
    Departments, agencies, and Congress ask if we are producing 
the desired result at an acceptable cost. And if the answer is 
no or, as is the case in many of the programs, we do not know, 
we figure out what to do about it.
    We are focused on results because it is what our citizens 
and taxpayers expect us to do.
    The administration is interested in working with Congress 
to ensure this focus on results becomes a habit, becomes what 
the Federal Government is all about, and becomes irreversible. 
We believe the question is not whether but when and how the 
Executive and Legislative Branches should more formally partner 
together to realign or eliminate duplicative, wasteful, 
outdated or failed programs. This is something we need to, 
should, and can do.
    We also believe that expedited Congressional consideration 
of any resulting proposals is very important for any such 
formal partnership to be most effective. I applaud this 
Subcommittee for assessing how we can become even more results-
oriented and I look forward to working with you and Senator 
Brownback and others to craft a proposal that will help us do 
that.
    Senator Voinovich. Would you like to share with us some of 
the things that you have done in terms of evaluating programs?
    Mr. Johnson. Program assessment?
    Senator Voinovich. Yes, and maybe get to the issue that I 
raised with Senator Brownback, the issue of standards. How do 
you go about judging these programs and evaluating them and 
grading them?
    Mr. Johnson. We have devloped--as referred to earlier--the 
PART, Program Assessment Rating Tool, that is a series of 25 or 
so questions that we ask of all programs. In 40 percent of the 
cases we cannot tell whether a program is demonstrating 
results.
    In many cases that is because we cannot either define what 
the program is supposed to do or we know what it is supposed to 
do but we do not know what to measure to determine whether it 
is doing it.
    DEA is an example. How do you measure the effectiveness of 
the Drug Enforcement Agency? It is not the number of 
interdictions. Is it the price of drugs? Is it the quality of 
drugs? We are in some businesses that are very hard to measure.
    So we even, with the help of this commission or something 
similar, are always going to have less than perfect measures 
with a lot of our programs, just because of the nature of the 
business--and I use the word business colloquially. It is just 
the nature of the activities that the Federal Government is 
involved in.
    But nevertheless, that should not keep us from doing 
everything possible to assess to the best of our ability 
whether or not programs are working. And if they are not 
working or we do not know if they are working, we need to 
figure out what to do about them.
    The Program Assessment Rating Tool, and this whole process, 
is something that requires a lot of work. Former OMB Director 
Mitch Daniels and Sean O'Keefe, who conceived of this back in 
2001, laid out a 5-year timetable to evaluate all of the 1,300 
programs that exist in the Federal Government.
    The original PART called for 20 percent of the programs to 
be assessed each year. The goal is to assess if the programs 
work. If they do not work, at an acceptable cost, let us figure 
out what to do about it. And so there are recommended next 
steps.
    One of the recommended next steps might be to restructure 
the program to make it effective. Another possible next step 
might be to change the management, or combine it with another 
program. Another possibility is to come up with more relevant 
performance measures. We may be measuring how it performs in 
one direction, and it really should be going in a different 
direction, so we are thinking about the wrong performance 
measures.
    Our focus on this is to make programs work better. For 
example, appropriators and authorizers have decided that we 
want to be in the adult literacy business. We want to teach 
illiterate adults to read. And the appropriators have gotten 
together, with the agencies' input, and decided, for instance, 
we want to spend $500 million a year on adult literacy.
    Well, we assessed the adult literacy programs and we found 
that they work 25 to 30 percent of the time. Well, that is not 
a good score. That is not a good performance. So do we drop 
that program?
    Our approach is somebody else might decide that we are not 
interested in adult literacy, but the program exists. Congress 
and the Executive Branch have decided that we want to be in the 
adult literacy business. Our responsibility, as management 
people, is to figure out how to make these programs work.
    We believe that there needs to be more accountability at 
the State level and so we try to restructure programs to 
incorporate more accountability measures.
    Separately, you might decide that we want to really be in 
the adult literacy business or we do not want to be in it. In 
the meantime our job is to make the programs work.
    So the PART process is a way to ask if it is working? Is it 
achieving the desired result at an acceptable cost? If the 
answer is no, or if the answer is we do not know, we figure out 
what to do about it.
    Now, nothing automatically occurs because a program is 
considered to be an F or a D and have a low score. The agencies 
were originally very afraid to evaluate these programs because 
they thought things would automatically happen and anybody 
associated with a failed program would be tainted for life.
    The point we have tried to make to agencies, and I think 
they have come to understand this now, is nothing happens 
automatically with a bad grade. Our goal, as we use the PART, 
is to get programs to work.
    During this process we often find that some programs 
duplicate one another, or some programs work but they have 
already accomplished their stated objective. Or they work, as 
you said, contrary to some other programs. And in some cases 
the remedy we suggest is to eliminate or to combine or to 
restructure.
    But it is not always the case that a program that does not 
work should be eliminated. Money does not, nor should it, 
automatically flow from programs that do not work to programs 
that do work. Oftentimes the recommendation is to take ill-
performing programs, change them, combine them, and get them to 
work. When eliminating programs--this does not happen unless 
Congress decides and the President decides we are not effective 
in a certain arena, and that we really should not be in this 
particular business. Let us get rid of all the programs 
associated with it. That is a separate drill that we go through 
as we try to assess whether programs work or not.
    Senator Voinovich. The thing is that, one of the things 
that I always said to my directors was if you cannot measure 
it, do not do it. That is a nice thing. If you cannot measure 
it, then you force your people to say how do you measure 
whether or not this program is getting the job done?
    The other issue is that at budget time to show cause why we 
should not eliminate the program. In other words, to force them 
to come in and say this is a good program. And why is it a good 
program? And why is it that--through the budget process of 
putting the pressure on, so often what happens is budget time 
comes around--in fact, one of the things I do not like about 
this place is that you have got the annual budget so everybody 
just spends their time just regrinding the material and then we 
do not have time here to do the oversight because we are so 
busy with the budget and appropriations that it is just a very 
frustrating situation.
    Do you do that kind of thing at budget time with some of 
these agencies? Ask them about whether or not these programs--
from your point of view, you are running them. Are they working 
or not working?
    Mr. Johnson. We have evaluated 40 percent of the programs 
and we are this year evaluating the next 20 percent, so it will 
be about 60 percent of the programs and probably about 70 
percent of the money.
    So where we have good performance, medium or bad 
performance, that information is included in our budget 
submissions to Congress. We are trying to, working with 
agencies, factor performance information into more and more of 
the President's management and budget recommendations.
    And we recommended that 13 programs be dropped this year 
primarily because of performance. There were another, I think, 
50-some-odd programs that were recommended for elimination for 
reasons other than performance. They were duplicative, they had 
run their course, etc.
    So yes, performance information, results of these PART 
assessments, are included in our budgets. And 40 percent of the 
programs have that information referred to for this year's 
budget and it will be 60 percent next year.
    So in another 2 years we will have evaluated 100 percent of 
programs, 100 percent of the money. By then we also will have 
worked and helped the Appropriations Subcommittees make the 
transition to budgets that are more focused on program 
performance, agency performance, and less so on category of 
expense.
    Senator Voinovich. Have any committees, appropriations or 
authorizations committee, reduced or eliminated the funding for 
any programs that you have identified as not effective.
    Mr. Johnson. Yes. I do not have a list of those now but we 
can get those for you.\1\ But then there are some that we have 
recommended that they reduce or eliminate funding that they 
have not agreed to, as well.
---------------------------------------------------------------------------
    \1\ The information for the record appears in the Appendix on page 
58.
---------------------------------------------------------------------------
    Senator Voinovich. That would be interesting, I think, just 
as a matter of information for the Members of the Senate, as to 
where you have made some recommendations and what has happened 
to them.
    The other thought that I had is that if this commission got 
going, what is your thought of how the administration could use 
the findings to help you in dealing with your management 
improvement initiatives?
    Mr. Johnson. We are very close to agencies and very close 
to these programs. The value that I see in a commission similar 
to what has been proposed is we could use our PART assessments 
and offer recommendations to any commission--if that was the 
structure we agreed on--as to what programs ought to be 
combined or restructured or eliminated, etc.
    The commission could provide a different, fresh independent 
view of all that, perhaps a little higher level, more across 
the government view. So it might provide a quality assurance 
check for Congress that programs have really been looked at 
seriously and objectively.
    So that if a recommendation comes to Congress from the 
Executive Branch, it could be helpful for a commission to 
perhaps provide recommendations that were not included by the 
Executive Branch.
    But the Congress can be assured that this thing has been 
looked at most seriously. So it should have a higher level of 
confidence that if it takes this up with an expedited 
consideration measure built in, that it is doing so with a lot 
of confidence that it has been very well thought out.
    Senator Voinovich. If you think about this, what would your 
opinion be, and I do not even know in terms of the BRAC process 
how it works and we will find out from our next two witnesses 
or maybe you are familiar with it.
    But it seems to me that as the commission would be doing 
its work, what would you think about the Administrative Branch 
of Government being privy to that information so that it could 
use it? Or do you think that it would be better to just let 
this thing run its course and have them come back with the 
recommendations fresh without any kind of relationship with the 
administration?
    In other words, they are going to be discovering things as 
they go along. And the issue then becomes do you wait until the 
commission is over to then make the recommendations and it is 
an up or down vote? Or would it be advantageous that that 
information is shared with you so that possibly you would be 
able to take advantage of that work?
    Mr. Johnson. The PART information now is----
    Senator Voinovich. By the way, they are going to have to 
work with you anyhow.
    Mr. Johnson. The PART information is available to the 
public now. It is on the web and it is there for all the world 
to see. So there is no smoke, no hidden anything. It is there.
    So if agencies, the public, or Members of Congress want to 
take exception to ratings, they can. It has to be very public. 
The evaluation of these programs cannot be secretive. Our 
recommended next steps are public.
    So I would hope that we would not be any less public than 
we are now.
    Then I think the deliberations by the commission, that is 
to be decided how open to the public that is. But the 
evaluation of these programs is out there for the world to see. 
So if they can see that some of their pet projects are 
consistently rated results not demonstrated or ineffective, 
yes, they will be inclined to mount their lobbying efforts or 
to work through agencies to reassess their evaluations and so 
forth, and work with OMB. But that, to me, is just the nature 
of the beast.
    I think these evaluations have to be able to stand the test 
of public scrutiny and so far I think they are.
    Senator Voinovich. Have you had any ``outside 
organizations'' look at your methods for evaluation of the 
departments?
    Mr. Johnson. We have had outside groups look at the PART 
and the questions and the methodologies we are using, GAO and 
the National Academy of Public Administration has looked at it.
    And the questions, the use of the questions, they have done 
consistency checks, quality control reviews, and so forth. 
There is no assessment process that is perfect. This is a darn 
good one, and it has gotten better each year. It is something 
that I think Congress is developing an increasing confidence 
in. Agencies are also more confident, including OMB.
    You asked earlier if the commission should rely on PART 
information, rely on evaluations from the Executive Branch, 
from OMB or the agencies. I think to do anything other than 
that is nuts. These are very hard to do. Evaluations of 
programs take a lot of time. They take a lot of time from the 
agency, a lot of time from members of OMB.
    And I think if a commission starts with something similar 
to the PART, basically they start somewhere between second and 
third base and on their way to get home. There is no point in 
starting at home base to try to make it all the way around.
    So it is a wonderful beginning. They can then challenge 
some of our initial assessments, challenge some of the 
conclusions that have been made, and add fresh perspective to 
it.
    But I would like to think that no matter what the 
instrument is the initial assessment, should be done by the 
Executive Branch and then brought to a commission to consider 
and to poke holes in or to challenge.
    Senator Voinovich. So you would suggest that the commission 
would pay attention to the PART tool that you have established?
    Mr. Johnson. Or whatever it is called or however it is 
structured. And it will get better every year.
    Senator Voinovich. Would you think it would be a good 
idea--I know when we started to work on the issue of human 
capital that we worked with the National Academy of Public 
Administration, the Council on Excellence, and the John F. 
Kennedy School of Government and some of the other 
organizations to develop kind of a consensus on the areas where 
we needed to have change.
    Do you think it would be worthwhile for the commission to 
take and get some of the top groups in the country, that are 
respected, to help them develop and take into consideration 
some of the work that you have already done in coming up with 
the standards and procedures so that we start out with 
standards that most people would agree that were fair and 
impartial and did not bring to the table some bias?
    Mr. Johnson. Sure. I do not think that an outside group is 
going to be able to look at something like DEA and say oh, it 
is obvious that the best performance measures to use for DEA 
are X, Y and Z. Because if they were obvious, we would be using 
them by now.
    But I think outside groups can be brought in at the initial 
stage of a commission's life to look at the PART process as 
other good government groups have looked at it, and give the 
commission confidence that it is well thought out or that it 
ought to be modified in some form or fashion.
    I would not ask an outside group to start from zero and 
tell us what we should be doing. I think that we probably know 
85 percent--I am throwing that number out--of what we ought to 
be doing, what the questions ought to be, what the process 
ought to be, how the commission ought to work.
    So an outside group coming in at the beginning of a 
commission's life, I would suggest, would be to give the 
commission members confidence that we have got a really good 
start and fill in that last 15 or 20 percent. I do not think 
they should be asked to come in and say I know nothing, tell me 
what we should be doing.
    Senator Voinovich. I am not talking about--it is the issue 
of are the criteria that you are using, your standards to 
evaluate programs, ones that a major corporation in this 
country would say are the kind of things that they would be 
using to evaluate whether or not their operations, 
understanding that government is different than many 
corporations. But a lot of it is very similar.
    Mr. Johnson. But what the PART examines is if we have a 
clear definition of what success is. And do we have good 
performance measures to use to determine whether we are 
achieving that success? It does not declare what the 
performance measure is for DEA, for instance.
    I think any outside group would agree that is a good 
question to ask--if we have a definition of success and do we 
have a good performance metric to use? Now, what is the best 
performance measure to use for DEA?
    My guess is an outside group is going to find it as 
difficult as we find it is to develop those good performance 
measures. It is an ongoing process to find out what they are. 
My guess is an outside group could question if we are asking 
ourselves the right general questions, but that what 
performance measures are best for each of the 1,300 programs. 
That has got to be a program by program decision.
    One of the things that is referenced here is that there 
ought to be common performance measures developed for common 
programs. And we agree totally. We are in the process of doing 
that. But if an outside commission could do that with gusto and 
with the highest levels of objectivity, that is something that 
definitely needs to happen.
    And there is a lot of duplication from program to program.
    Senator Voinovich. The reason I am raising it is when I got 
involved in the educational thing and asked the GAO to do it, 
they basically said they did not have the criteria in place to 
go ahead and evaluate it. So it is a big deal.
    Mr. Johnson. It is a big deal. With education in general, 
as you know, I think something like less than 10 percent of all 
money that goes into education comes from the Federal 
Government. So most of these education programs, and generally 
the Federal Government is providing a very small amount of 
money to make very large things happen.
    So it is hard to determine exactly what impact our Federal 
monies have on the overall goal which is not just how is our 
money working but how is the overall bucket of money working.
    Again, it is an example of the fact that we are in some 
very difficult businesses to measure. That does not mean we 
should say no need to measure performance, no need to hold 
these programs accountable. We need to ask ourselves do they 
work or not? And if they do not or we do not know, let us make 
a decision accordingly.
    Again, there are some things that could give us a sense of 
whether these programs are working and in other programs it 
will be very clear whether they are working or not. And so any 
commission or any group we set up to help us do this--and we 
must do this, we must figure out a way to establish some 
expedited consideration by Congress with the help of a 
commission or some kind of input device. There is too much 
money and the results are too important for us to let this 
opportunity go by.
    We are going to be plagued with fuzzy information about 
whether some of these programs work just because of the nature 
of these programs. And we are going to have to do the best we 
can.
    Senator Voinovich. It will be interesting. Have you 
identified, when you start out on the things you get 
priorities. But it seems to me that if you really looked at 
some of this whole gamut of things that are out there, that 
there is some low-hanging fruit that you could get at pretty 
fast that would be less controversial and put it into 
categories about this is an area and then say this looks like 
it might be more difficult.
    Mr. Johnson. We have looked at that same list that the 
Senator put up earlier, that the GAO had developed in 1999, I 
think it was. Economic development is one, job training is one, 
food safety is one. We are going to look at them here in the 
next several months and make sure we understand the programs 
and which programs that are in these similar lines of business 
have been evaluated and which programs have to be evaluated so 
that we have assessment of all the programs.
    There is some low-hanging fruit in that it is clear that 
there is a lot of duplication or a lot of overlap. It may not 
be as clear what the answer is or what the solution is. But it 
is clear, I think, and we can agree pretty quickly on where we 
ought to start.
    Senator Voinovich. If we get this thing going there is 
going to be a lot of time spent on making sure we do it in a 
very thoughtful way.
    Thanks very much for being here and again congratulations 
on the good job you are doing.
    Mr. Johnson. I appreciate it. Thank you for the kind words.
    Senator Voinovich. I would now ask our next witnesses to 
come forward, Mr. Armey and Mr. Weinstein.
    Mr. Armey, I want to commend you for your continuing 
commitment to the American public beyond your distinguished 
career in the House of Representatives. You have established a 
very high standard for public service and it is nice that your 
interest in this continues with Citizens for a Sound Economy.
    Mr. Weinstein, thank you very much for being here today 
with us. We will start with Mr. Armey.

 TESTIMONY OF HON. DICK ARMEY,\1\ CO-CHAIRMAN, CITIZENS FOR A 
                         SOUND ECONOMY

    Mr. Armey. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Armey appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    Let me thank you for inviting me today. We at Citizens for 
a Sound Economy take our work seriously and I saw my 
association with them as an opportunity to continue my work 
outside of membership in Congress.
    I was just reviewing in my mind, there is a legacy of 
broken hearts and broken promises, ingenious counter 
legislation, and broken bodies in the effort to control 
spending in Washington.
    And I was just thinking in terms of my own adult memory of 
things I actually was as an adult, able to observe, beginning 
with Kennedy and Johnson, who pursued base closing with some 
enthusiasm.
    That gave rise to legislation which blocked it for over a 
10-year period, legislation incidentally sponsored by, I 
believe, Senator Kennedy's successor in the House, who went out 
to be Speaker of the House, Tip O'Neal.
    As we watched the process go on, we remember Richard 
Nixon's impoundment and recissions which gave rise to the--I 
always like to say the full title--Budget Reform and 
Impoundment Control Act, because indeed it was impoundment 
control that was the object of their affection.
    This is probably one of the most colorful ruses in the 
history of legislation, the budget process created just in 
response to Nixon's efforts to control spending.
    President Carter made himself extremely unpopular when he 
tried to advocate zero-based budgeting in Washington and I 
think it contributed a great deal to his frustrations.
    Ronald Reagan had the Grace Commission. Senator Gramm had 
Gramm-Rudman. We had, in the House at one time, a merry 
bipartisan band of people called the budget commandos that was 
sort of put together by myself and Chuck Schumer, now a 
Senator, where we tried to go after expensive spending.
    It is in the legacy of this frustration that I think 
Congress turns to commissions. Certainly, I did turn to a 
commission when I did the BRAC Commission in 1987 and 1988.
    I am generally skeptical of the possibility of commissions 
working, and I am always a little bit sad to see us need to go 
to commissions because to some extent Congress should pick up 
this ball without the commission. But clearly there are areas, 
and public choice theory tells us cutting spending is clearly 
an area where these difficulties will plague you to the point 
where a commission may be your best option.
    The two most successful commissions that I have seen 
operate in my adult lifetime have been the Greenspan Commission 
that by and large did the wrong thing with Social Security, but 
still gave Congress a chance to act on a subject that is 
considered the third rail of American politics and one not to 
be trifled with. And then the BRAC Commission.
    When we set up a BRAC Commission I think the most important 
job--and I should say for over a year of my life I did what I 
called hand-to-hand persuasion. I had to talk to members on the 
Floor, in their offices, hand-to-hand, and assuage their 
reality-based fears.
    There were too many Members of Congress--Joe Moakley being 
one of my favorite examples--who knew of base closures having 
been used as political reprisals in the past and quite rightly 
wanted assurance that would not happen in the future.
    In the process of giving that reassurance, I had to explain 
to them that there would be an objective criteria and the 
information processing that would bring the results would be 
done on a professional basis by professional people.
    The clear inference in this, as we discussed it prior to 
enacting the legislation as we have seen it operate in the 
various commissions we have had, was that the professionals at 
the Pentagon would provide the information and make 
recommendations. And to a large extent, that would be the 
database around which the commission worked.
    But I must say I have had the privilege of having recent 
conversations with two members of the early commissions, former 
Congressman Jim Courter who chaired the first commission, maybe 
the first two commissions, and my colleague Harry McPherson at 
Piper Rudnick. Both of these fellows tell me, and I think they 
probably speak for all the members of the commission, that it 
was the hardest work they ever did in their life.
    For the process to work, then, you must have professional 
information, professional data, and serious hard-working 
members of the commission that will not allow politics to 
impinge on their thinking. And Congress needs the assurance 
that it will not be political. The commissioners need to have 
the encouragement to keep politics out of it because it will be 
their instinct to keep it out. And to keep to the professional 
data.
    Also, as you go forward on this, I found in the process of 
enacting BRAC that one of my most colorful, and frankly most 
enjoyable opponents was then-chairman of the Judiciary 
Committee Jack Brooks, former chairman of the Government 
Operations Committee.
    Jack was a wily guy. Jack tried very hard to get us to 
bring back the committee recommendations for a motion of 
approval. Something, maybe intuition, maybe instinct, or maybe 
just my admiration and amusement of Jack Brooks, something 
triggered an awareness in me that caused me to insist that it 
be a motion of disapproval. It makes all of the difference in 
the world.
    I do not believe there would have been a single based 
closed after the passage of BRAC in 1988 if it had been a 
motion of approval as opposed to a motion of disapproval in the 
two houses.
    Also, the all or nothing proposition is very important. It 
was very important to the members. I do not believe they would 
have voted to enact the legislation without it. I think that 
they were willing to live with the results in affirmation of 
the recommendation. The commission makes a recommendation to 
the President. The President accepts the commission's 
recommendations and moves them on to the legislative bodies 
without tampering with them.
    Now I think if this legislation makes a provision, an 
exception for national security for the President, it will 
probably be judged a reasonable exception. But the most 
important thing you must have is insulation from politics so 
that the members will not be concerned about having political 
reprisals taken against them, the need of a professional 
criteria and professional judgment by a serious hard-working 
commission that commands the respect of the members. In the 
case of Jim Courter, you had a highly respected former member 
of the Armed Services Committee known by both the Democrats and 
Republicans in both bodies to be a serious and objective fair 
man. These were the kind of reassurances you need.
    I should say we have a wealth of information going way back 
to the Grace Commission. But more currently the work that has 
been done under the Results Act has given us a good deal of 
criteria by which we can measure. GAO is, I think, clearly an 
able and professional organization that gives reliable data and 
information. So if you take the work of the GAO and the OMB I 
think you have the objective professionals with skill and 
ability that can provide the information that is needed.
    As I said from the beginning, it always saddens me some to 
see Congress resort to a commission. I always kind of live with 
the naive hope and dream that Congress will pick up the ball of 
its own responsibilities and carry it over the line. There are 
areas of governance, spending reduction being one of them, that 
have such a legacy of failure and frustration, even after so 
many different efforts, approaching so many different 
methodologies, that the commission probably is the best 
alternative. And if done properly can be effective.
    I, too, agree with you that it is unfortunate that we are 
only confining this to a small percentage of the budget. The 
mandatory spending areas of the budget will be addressed soon 
enough. There will be an addressing of, for example, Social 
Security's pending insolvency and the impending financial 
overburden of Medicare. These things will happen. My guess, 
they will happen by commission as well sometime in the future.
    We did, for example, do a fairly decent job at agricultural 
reform in 1995 or 1996. Even when you do, by legislative 
action, fairly substantial reforms in mandatory spending--and 
agriculture policy illustrates this--you can soon discover that 
backslider's wine is still the favorite drink of most Members 
of Congress on either side of the building, either side of the 
aisle. So agriculture policy now is as large a mandatory 
spending burden on the budget as it has ever been and makes no 
more sense than it ever did.
    So again, I think you have a chance to gain some ground but 
then subsequent to doing that we will have to discover how to 
hold the ground. And in the final analysis, in the end, it will 
only come down--even after the good work of a commission--to 
the responsible work of Congress. Congress will eventually have 
to carry the responsibility of maintaining a more sane budget.
    I finish with two observations. I cannot resist myself. 
Armey's axiom is that nobody spends somebody else's money as 
wisely as they spend their own. Congress proves that every day.
    My other axiom is a fool and my money are soon parted. 
Congress proves that every day. Thanks.
    Senator Voinovich. Thanks very much. Mr. Weinstein.

 TESTIMONY OF PAUL WEINSTEIN, JR.,\1\ CHIEF OPERATING OFFICER, 
                  PROGRESSIVE POLICY INSTITUTE

    Mr. Weinstein. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Weinstein appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    My name is Paul Weinstein. For 8 years I served in the 
Clinton Administration White House and worked on a variety of 
issues including reinventing government and the National 
Performance Review.
    I am pleased to be here today to testify on S. 1668, the 
CARFA legislation, and in general on the need for 
reorganization and reform of the Executive Branch of Federal 
Government.
    It is a fact of life that every entity needs to reinvent 
itself continually in order to improve and survive. If 
government is to be a force for good, it too must reinvent 
itself on a continual basis.
    Unfortunately, more than half a decade has passed since we 
really have had a complete governmentwide reform of government. 
Not since the implementation of the Hoover Commission's 
recommendations in the late 1940's and 1950's has Congress and 
the President worked together to put in place comprehensive 
governmentwide reform.
    And despite the efforts of the many good people within 
government who try to make it work, we are paying too much for 
the failure to remake the Executive Branch more efficient, 
effective and less costly.
    Simply put, 50 years is too long to go without more than 
just a tune-up. The Executive Branch needs a top to bottom 
overhaul.
    That is why I am pleased that the Subcommittee is 
considering legislation to create a commission on government 
reform and accountability modeled on the military base closing 
commissions of the past.
    The Progressive Policy Institute, where I am Chief Operate 
Officer, has long advocated creating a commission to reinvent 
government and eliminate corporate welfare. Our organization 
has believed that the best way to achieve comprehensive reform 
in the Executive Branch is to combine the commission function 
with a mechanism to require Congress to vote on its 
recommendations. Senator Brownback's CARFA legislation would 
provide for this type of commission.
    However, we also believe that in order to assure that the 
legislation truly achieves the goal of reform and efficiency, 
S. 1668 needs to be modified in several key aspects: The first 
area, bipartisanship. It should come as no surprise that most 
significant government reform effort of the past 50 years, the 
Hoover Commission, was led by a former Republican president 
appointed by a Democratic one.
    A true bipartisan commission, with its membership split 
between both parties, should increase the likelihood of both 
broad congressional and public support, something quite 
honestly, when you are going to undertake the endeavor you are 
about to, you are going to need.
    I believe the CARFA legislation should follow the model 
established by the Defense Base Closure and Realignment Act of 
1990. This law required that the BRAC Commission consisted of 
eight members selected by the President with the advice and 
consent of the Senate. But more importantly, it effectively 
divided the membership of the commission among Republicans and 
Democrats.
    Expanded scope. When companies choose to remake themselves 
they look at all aspects of their operations, not just a few 
departments. Yet, as currently written, the legislation limits 
the CARFA scope to non-defense domestic agencies and their 
programs. Imagine if the Hoover Commission had been charged to 
only review domestic agencies. Without its recommendations, the 
President and Congress might never have created a National 
Security Council or a unified military cabinet level agency, 
the Department of Defense, both key players in winning the Cold 
War.
    Multiple rounds. The 2-year timetable set forth in the 
CARFA legislation, I believe, is appropriate. However, in order 
to give the commission members the needed flexibility to meet 
its congressional mandate, I would suggest that it be allowed 
to submit more than one round of recommendations, maybe two or 
three. A multiple round approach would also help CARFA to build 
public support and increase the likelihood of its success.
    I would like to remind the Committee that the original BRAC 
Commissions did not make all their recommendations in a single 
bill. They were reauthorized to do several rounds. And that was 
important to achieving their goals.
    Additional criteria. S. 1668 sets forth some very important 
criteria for CARFA to follow, many of them which I agree with, 
such as identifying programs and agencies that are duplicative, 
wasteful or inefficient, outdated, irrelevant or failed. But I 
think we need to add some additional criteria to these as well.
    One should be reorganizing agencies into mission focused 
departments instead of programmatic ones.
    Two, CARFA should be given the authority to recommend 
simplifying programmatic regulations if it would help the 
relevant departments better meet the objectives of the germane 
authorizing statutes that Congress passed initially.
    Three, CARFA should be required to identify and propose for 
elimination corporate subsidies that do not serve in the 
national interest.
    Four, a provision should be added to the legislation that 
encourages it to improve the health and safety and security of 
the American people.
    Again, I want to thank the Subcommittee for its attention 
and look forth to answering any questions you might have.
    Senator Voinovich. Thanks very much. We really appreciate 
your being here today, Paul.
    Paul, you got into some thoughts on recommendations, how 
you would improve the Brownback legislation.
    Mr. Armey, do you have any thoughts on that?
    Mr. Armey. Yes, I do. First of all, I want to thank Paul 
for his recommendations. I think they were all very good.
    The one thing that I would like to see, and this becomes a 
very difficult thing that would have to be dealt with with some 
care, is some latitude for the commission to at least recommend 
programs for elimination on the basis that they are not 
necessary nor an essential function of government.
    This becomes somewhat problematic and it would be a 
difficult section of the bill to write, because in effect what 
you are doing is saying to the commission we are now taking you 
a step from eliminating waste and inefficiency or duplication 
in what we do to telling us what it is the government should 
do. And that is our prerogative.
    But it strikes me, and I think you would find, certainly 
among conservative thinkers in America, a great deal of the 
taxpayers money is spent on government doing things government 
should not be doing in the first place. And a great many people 
in America, I think, would feel that the legislation is 
somewhat incomplete if the commission has no latitude to at 
least address this by way of recommendation.
    Mr. Weinstein. Mr. Chairman, I would also like to add that 
I think it would be helpful, too, if some positive criteria 
were put into the legislation, as well.
    What I mean by that is not only would you might want to 
merge or eliminate an agency because it is duplicative, but you 
might want to eliminate it if you thought the performance of 
government in general would be improved.
    So rather than just sort of a negative-based criteria, why 
not actually look at this from a positive point of view as 
well?
    One of the problems that we had back in the Clinton 
Administration was where we wanted to actually do positive 
changes, merging or consolidating things. And we were not 
allowed to do so. And some of those changes would have actually 
helped improve these programs and made servicing taxpayers more 
beneficial. I think the legislation maybe needs to be revised 
along those lines.
    Senator Voinovich. In other words, what you are saying to 
me is that the way the law is written, that the flexibilities 
available to the Administrative Branch of Government for 
improvement are not there. That is a separate issue, is that if 
you had some more flexibility to look at that?
    Mr. Weinstein. I agree.
    Senator Voinovich. Has anybody ever looked at that in terms 
of recommendations, in terms of flexibility?
    Mr. Armey. I was going to say it is another good 
recommendation. It is not uncommon to find an agency under the 
management of the Executive Branch enforcing regulations that 
they themselves believe to be foolish or counterproductive even 
to their own mission simply because they must do so under the 
law passed by Congress. I think this is what you are saying.
    To give that agency a chance to make itself better by being 
relieved of the burden of some mandate that was maybe slipped 
into a bill some time ago because an individual Member of 
Congress had an individual constituent with a particular 
irritation and all of a sudden there is a red tape stricture 
wrapped around the agency that either forces them to do 
something that they think to be unnecessary or 
counterproductive to their own mission or forces them to do 
something that they think is just plain foolish.
    Mr. Weinstein. One of the things we did in the Clinton 
Administration was give out of a number of waivers when we had 
the actual authority from Congress to do so. But we were 
actually rather restricted in some other areas. And I know one 
of the things that we always wanted to look for was additional 
authority to give more flexibility, especially to local 
governments and State governments, where we could have allowed 
them to actually meet the program goals or mission goals 
without being tied up with red tape.
    Often, as Congressman Armey points out, there are statutes 
that have been developed over time which basically are at 
counter purposes. And lawyers at agencies tend to be 
conservative because they want to stay in the black. They do 
not want to get into the gray area.
    So greater flexibility in allowing departments to actually 
achieve the true mission, the intent of what Congress wanted it 
to do, is actually a good thing. And I think the legislation 
should look at that.
    Senator Voinovich. That is a very good point that you made 
because I was very much involved, as one of the governors that 
did the welfare reform. And I really believe that had it not 
been for the waivers that we had gotten from the Clinton 
Administration, we would never have got that legislation 
passed. Because States were able to show with the waivers that 
we were able to do some things better than what the law allowed 
us to do. And that set the stage for it.
    I know I am looking at health care reform right now, 
working with Stuart Butler and Hank Aaron over Brookings, and 
how do you deliver a new health care system in the country. And 
one of the things that they are looking at is providing more 
waivers to States that get started. The State is the 
laboratories of the democracy.
    The point you are making is if you had more flexibility to 
do that you might allow some people to do some things to 
achieve them differently than maybe the way it has been laid 
out by Congress, because you are actually letting the people 
that are doing the work come back and say gee, if you let us do 
this this way, we could probably do it better.
    Mr. Weinstein. Absolutely. We did a lot of welfare waivers 
but one area where we could not do as many was Medicaid. That 
is really an area I would encourage you all to look at and 
basically see if we can create some more flexibility.
    I have talked to a lot of governors who are very frustrated 
right now because of the mandates that they are having to deal 
with and they would like to do the right thing. And one of the 
things that would enable them to do so would be get some more 
flexibility on how to meet those goals.
    Senator Voinovich. We tried Medicaid, too. I do not know if 
you were around when we did. But we never got to the point 
where we could get everybody to allow us.
    Mr. Armey, you were very much involved with the BRAC 
Commission, the legislation. I was interested that you 
indicated that had you not done buttonholing in terms of this, 
it would not have gotten passed. Do you think this would be the 
same kind of thing we will have to do to get this done?
    Mr. Armey. I really think so. BRAC, we were really talking 
to individual members about their parochial interests. This is 
the base in my district.
    Most of what we are looking at here is where you are going 
to have programmatic constituencies. But still, nevertheless, I 
think the Member of Congress that says all right, maybe we have 
not been doing what we should have been doing with a lot of 
this stuff, but before we turn it over to somebody else I want 
to be assured that it is going to be done on a professional and 
objective criteria and this is not going to be shanghaied so 
that somebody can turn it around and use it as a political 
reprisal against me if they become disappointed in something I 
do.
    And of course, I was very naive and new to government, 
having never been in public office until I was elected, and 
having only been in office for one term when I did BRAC. My 
first impression was this was an irrational paranoia. But as 
you talk to people--and Joe Moakley was so helpful to me in 
this--you could talk about Members of Congress who had really 
voted in a way that offended somebody and really had seen their 
base closed for what no reasonable person could conclude was 
any reason other than to straighten them up and putting them in 
their place. Some even subsequently lost their seat.
    That is why I use the term reality-based fears. There are 
going to be those reality-based fears. And unless somebody is 
willing to sit down and encourage members in both bodies--I 
remember Senator Sam Nunn was so helpful to me in the Senate, 
encouraging Senators to understand no, this is going to be a 
professionally done operation. And I think it has been.
    I think generally speaking, if you take a look at the 
history of BRAC, everybody would have to concede there has been 
virtually no politics crept into that process. It has been an 
objective military preparedness criteria and done on a 
professional basis without a single political axe having been 
ground. I think that is a fair assessment of that.
    If you cannot assure people this will be done on that 
basis, then I do not think they will vote for the authorizing 
legislation in the first place.
    Senator Voinovich. I can tell you that we had a dickens of 
a time going to the next BRAC recommendation and there were 
only 34 of us in the Senate that voted for it when it first 
came up a couple of years ago. Then we brought it back again 
and finally got it done again, in spite of the overwhelming 
evidence that there was some wonderful opportunities to reduce 
the cost to government.
    So this gets to the other question. You are saying that the 
members want to know that this is going to be fair and 
impartial. How important do you think it is that we get started 
with this? That we do some background information in terms of 
the kind of standards that we would use? So that if somebody 
asks me the question or Sam Brownback, Hey, I am worried about 
this thing, how is this going to get done?
    Then we would able to say to them look, we have had some 
pretty top-notch people look at this, they are not liberal, 
conservative, or whatever it is. But just objectively say this 
is a proper way of getting the job done.
    Do you think that would help us at all? Or do you think we 
would get into a rat's nest because we start talking about the 
standards?
    Mr. Armey. It seems to me that given the looming financial 
crisis that is coming with Social Security--I mean. I think by 
the year 2018 you are relying on the Trust Fund which is not 
there, which has nothing in it. So that you are going to have 
to be preparing yourself for some budgetary accommodation to 
this new urgency.
    The fact of the matter is I had, during all of the years I 
was Majority Leader, worked with the Government Operations 
Committee on the Results Act. I believe we had a good legacy of 
information and background data and methodology already 
existing out there from which we can draw.
    I think there have been a lot of good efforts that are made 
that have laid the foundation. Senator Connie Mack came to me 
with an idea similar to this say 6 or 7 years ago, I did not 
think we were ready.
    I think, in terms of database and methodology, I think we 
are ready for this and we can move. I think somebody might need 
to go through these agencies and review the effort that we have 
and put together maybe a laundry list that demonstrates that 
capacity to the members. I think it would be a handy thing to 
have.
    I remember when I did what I called my hand-to-hand 
persuasion on the Floor and in the cloakroom and so forth in 
BRAC. I had a little card full of meritorious information that 
I could tick off quickly. The data on the card that I carried 
was born out of what I had measured as the concerns of the 
members.
    One of the interesting things you find in the process of 
lobbying to your membership on both sides is you will find a 
continuity of concerns. So that in the first early ventures you 
can find the five or six top questions that are almost 
inevitably going to come up by every member you approach. I 
think we have the database there to put together the answers 
that are reassuring to those members.
    But it is a job that needs to be gotten on with as quickly 
as possible because it is just one of the many things we are 
going to have to do to get ready to deal with the Social 
Security financial crisis that is just going to be devastating 
if we are not prepared for it.
    Senator Voinovich. I agree with you. I have said to folks 
if we do not deal with this deficit and we do not deal with 
this looming crisis that is coming, there will not be anything 
for anybody. It will just consume almost the entire budget and 
there will not be anything left.
    So we have to start thinking about that and also getting 
back to in terms of how do you do something about the mandatory 
spending that we have got.
    What I am picking up from you, Mr. Armey, is that you think 
that with the administration's PART effort and with the Results 
Act that there is enough stuff there that would help us to 
convince members that this can be done?
    Mr. Armey. Yes, and I think you can convince members on 
both sides of the aisle. You can talk about the good work done 
by the Clinton Administration on reinventing government. You 
can talk about the Results Act in Congress. The GAO is a 
professionally capable organization that deserves our respect 
and admiration and I think has that. OMB has done a good job 
professionally on this.
    So my own view is that we have a legacy of information. 
There is also the Congressional Review Act and we have some 
legacy of information that has been done from those efforts.
    The shortages in information that I would identify would be 
only shortages pursuant to Congress's inability to fully 
exploit the capabilities they have had. But still, 
nevertheless, I think this Committee and your associate 
committee in the other body, the House, in pursuit of the 
Result Act, have put together an enormous legacy of information 
and data from which you can give a great deal of assurance to 
all the Members of Congress that yes, we can do this job. We 
have the data. We have the methods and we will have the 
objectivity.
    Senator Voinovich. It would be interesting, do you know of 
any committee over in the House when you were there that ever 
looked at the Results Act?
    Mr. Armey. Oh, yes. I tried to manage it out of my 
leadership office. Oversight is not something that 
congressional committees enjoy doing, as you know. It did not 
make me the most popular guy in leadership on those occasions 
when we encouraged it.
    But the House--we renamed all the committees in 1994 and I 
never got the new names right, so I am still living with the 
Democrat committee names. The House Government Operations 
Committee, Steve Horn from California had an enormous legacy, 
he put out a report card every year. There is a great deal of 
information in that committee.
    Steve Horn, unfortunately, retired because I would be very 
comfortable to refer you to him. But in your pursuit of 
information it might not be a bad idea to get in touch with 
retired Congressman Steve Horn. He was so active that he 
probably knows where all the good information can be found, and 
has a good deal of it at his fingertips.
    Senator Voinovich. I have been trying to get the folks over 
here to do the oversight in the Appropriations Committee. And I 
do not think they do it.
    Mr. Armey. In our body, the appropriators, quite frankly, 
do a good job of oversight. In some respects they may be the 
best people at oversight. Of course, oversight is a little more 
easily done by appropriators because the agency comes before 
the authorizing committee and says you can only give us life or 
death, the appropriators give us money. So the appropriators 
get much more attention.
    Senator Voinovich. I have talked to Ted Stevens about it, 
and he thinks it is a good idea. But you have to have somebody 
like you that says this is high-priority and then just keeps 
banging away at it, and then it gets done.
    Do the two of you both agree that perhaps this may be the 
only way that we can get to working harder and smarter and 
doing more with less and get the efficiencies and economies 
than the folks that put the money in the basket are entitled 
to?
    Mr. Weinstein. Yes. I agree with the Congressman that it 
would be great if Congress would be willing to give the 
President reorganization authority and other tools to do this 
job. But I think over time we have moved away from that. And 
basically I do think the BRAC model is really our best 
opportunity.
    I also do think with the current budget crisis that we 
have, we are slowly building up to a point where I think 
Congress may become more willing to take this on, which is why, 
of course, I encourage you to take a big bite of the apple 
because you do not get that many chances.
    So I think that thinking big here and using this 
opportunity that we have now, I would commend the Congress to 
do so.
    Mr. Armey. I agree.
    Senator Voinovich. Thanks very much.
    The real issue is whether or not we can get enough of our 
colleagues to think this is a good idea. I think the most 
important thing that is to find out how leadership feels about 
it.
    Mr. Armey. If you can get Ted Stevens to vote for it, you 
can pass it.
    Senator Voinovich. Thanks, very much.
    The meeting is adjourned.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4486.001

[GRAPHIC] [TIFF OMITTED] T4486.002

[GRAPHIC] [TIFF OMITTED] T4486.003

[GRAPHIC] [TIFF OMITTED] T4486.004

[GRAPHIC] [TIFF OMITTED] T4486.005

[GRAPHIC] [TIFF OMITTED] T4486.006

[GRAPHIC] [TIFF OMITTED] T4486.008

[GRAPHIC] [TIFF OMITTED] T4486.009

[GRAPHIC] [TIFF OMITTED] T4486.010

[GRAPHIC] [TIFF OMITTED] T4486.011

[GRAPHIC] [TIFF OMITTED] T4486.012

[GRAPHIC] [TIFF OMITTED] T4486.013

[GRAPHIC] [TIFF OMITTED] T4486.014

[GRAPHIC] [TIFF OMITTED] T4486.015

[GRAPHIC] [TIFF OMITTED] T4486.016

[GRAPHIC] [TIFF OMITTED] T4486.017

[GRAPHIC] [TIFF OMITTED] T4486.018

[GRAPHIC] [TIFF OMITTED] T4486.019

[GRAPHIC] [TIFF OMITTED] T4486.020

[GRAPHIC] [TIFF OMITTED] T4486.021

[GRAPHIC] [TIFF OMITTED] T4486.022

[GRAPHIC] [TIFF OMITTED] T4486.023

[GRAPHIC] [TIFF OMITTED] T4486.024

[GRAPHIC] [TIFF OMITTED] T4486.025

[GRAPHIC] [TIFF OMITTED] T4486.028

[GRAPHIC] [TIFF OMITTED] T4486.029

[GRAPHIC] [TIFF OMITTED] T4486.030

[GRAPHIC] [TIFF OMITTED] T4486.031

[GRAPHIC] [TIFF OMITTED] T4486.032

[GRAPHIC] [TIFF OMITTED] T4486.033

[GRAPHIC] [TIFF OMITTED] T4486.007

[GRAPHIC] [TIFF OMITTED] T4486.026

[GRAPHIC] [TIFF OMITTED] T4486.027

                                 <all>

</pre></body></html>
